        GENERAL SERVICES ADMINISTRATION
          OFFICE OF INSPECTOR GENERAL




             IMPLEMENTATION REVIEW OF
              CORRECTIVE ACTION PLAN
                       OF THE
AUDIT OF GSA’S LIVING QUARTERS ALLOWANCE PROCESS
         REPORT NUMBER: A090103/B/F/F09009
              DATED SEPTEMBER 4, 2009
            ASSIGNMENT NUMBER A110189


                 October 25, 2011
             U.S. GENERAL SERVICES ADMINISTRATION
             Office of the Inspector General




Date: 	      October 25, 2011 


Reply to     Deputy Assistant Inspector General for 

Attn of:     Finance and Information Technology Audits (JA-F) 


Subject: 	   Implementation Review of Corrective Action Plan of the Audit
             of GSA's Living Quarters Allowance Process, Report
             Number: A090103/8/F/F09009 dated September 4, 2009
             Assignment Number A 110189

To: 	        Alison L. Doone
             Chief Financial Officer (8)


The Finance and Information Technology Audit Office (JA-F) conducted an
implementation review of the management actions taken in response to the two
recommendations included in the subject audit report. We found that the Office of the
Chief Financial Officer implemented the corrective actions outlined in its action plan
dated September 9,2009, to address these recommendations (see Appendix A).

To accomplish this review, we:

    • 	 Reviewed the Audit of GSA's Living Quarters Allowance Process, Report
        Number: A090103/8/F/F09009 dated September 4, 2009, and supporting audit
        documentation.
    • 	 Reviewed the Action Plan dated September 9, 2009, and any related
        documentation submitted in response to the original report.
    • 	 Obtained Living Quarters Allowance (LQA) listings for fiscal years 2009, 2010,
        and 2011 and judgmentally selected a sample of six LQA participants.
    • 	 Obtained documentation from the appropriate personnel that reviewed and
        processed the LQA participants' documentation.

Thank you and your staff for the courtesies extended during this review. If you have any
questions, please contact Donna Peterson-Jones, Manager, or me at (202) 357-3620.




Carolyn Presley-Doss
Deputy Assistant Inspector General for
Finance and Information Technology Audits (JA-F)


                          1275 First Street, NE, Washington, DC 20417
          Implementation Review of Corrective Action Plan of the
            Audit of GSA’s Living Quarters Allowance Process
                   Report Number: A090103/B/F/F09009
                        Dated September 4, 2009
                      Assignment Number A110189


                            Appendix A: Action Plan

                     ACTION PLAN – GSA’s LQA Process

Designated Responding Official: OCFO
Contact Person: Vickie Jones
Telephone Number: 816-823-2886
Date: 09/09/2009


Audit Report Number/Title: Audit           Recommendation Proposed
of GSA’s Living Quarters                   Number: 1      Recommendation
Allowance Process – FY 2008                               Completion Date:
Report Number:                                            February 2010
A090103/X/X/XXXXXX




Recommendation:
Review the reconciliation packages for the employee who has not reconciled
since 2002 and the employee who received an LQA for personal living quarters
to determine whether any overpayments were paid, and if necessary, recoup any
excess LQA payments.


                                                                     Documentation
                                           Supporting                will be Sent
                                           Documentation To          Last Day of the
Action to be Taken Step by Step            be Sent to BEC            Month

Action 1 -Work with Region 3/CIO to        E-mail stating that all   December, 2009
ensure the required LQA packages for       completed LQA
(name redacted) are completed and          packages have been
submitted to the National Payroll          received from
Branch. The National Payroll Branch        Region3/CIO.
will complete the reconciliations within
45 days of receipt and the employee will
be informed of the over/under payment
of LQA received.

                                                                                 A-1
Action 2 - Work with Region 3/CIO to       Email stating that    February, 2010
correct the LQA package for (name          reconciliations are
redacted). The National Payroll Branch     completed and
will complete the reconciliations within   employee has been
45 days of receipt and the employee will   notified.
be informed of the over/under payment
of LQA received.




                                                                              A-2
Designated Responding Official: OCFO
Contact Person: Vickie Jones
Telephone Number: 816-823-2886
Date: 09/09/2009

Audit Report Number/Title: Audit       Recommendation Proposed
of GSA’s Living Quarters               Number: 2      Recommendation
Allowance Process – FY 2008                           Completion Date:
Report Number:                                        April 2010
A090103/X/X/XXXXXX




Recommendation:
Ensure that all participants of the LQA process are in compliance with DSSR
Section 130 by developing and implementing an agency-wide policy that governs
the LQA process to include roles and responsibilities, and specific procedures
designed to ensure that the LQA application and reconciliation processes are
properly reviewed and monitored by both designated regional coordinators and
NPB officials before any disbursements are authorized.


                                   Supporting                 Documentation
Action to be Taken Step by         Documentation to be        will be Sent Last
Step                               Sent to BEC                Day of the Month


Action 1 - Develop draft agency- E-mail with draft policy.    September, 2009
wide LQA policy and procedures.


Action 2 - Obtain concurrence of Email stating concurrence.   December, 2009
final document from FAS.


Action 3 - Obtain final concurrence Final notification of     March, 2010
from all Service and Staff Offices completion of Red Border
through the Red Border process.     process.


Action 4 - Finalize and post LQA Website of final document April, 2010
policy and procedures on-line.   location.




                                                                               A-3
           Implementation Review of Corrective Action Plan of the
             Audit of GSA’s Living Quarters Allowance Process
                    Report Number: A090103/B/F/F09009
                         Dated September 4, 2009
                       Assignment Number A110189


                        Appendix B: Report Distribution*


Office of the Chief Financial Officer (B)

Acting Director, Internal Control Division (BCB)

Branch Chief, GAO and IG Audit Response Branch (BCBB)

Audit Planning, Policy and Operations Staff (JAO)

Assistant Inspector General for Auditing (JA)

Assistant Inspector General for Investigations (JI)

Inspector General (J)

Deputy Inspector General (JD)

Special Assistant for Communications (J)




*Audit report distributed electronically.



                                                                    B-1
